   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2010 AND FY 2009
 Saint Lawrence Seaway Development Corporation

          Report Number: QC-2011-008
         Date Issued: November 3, 2010
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                     Date:   November 3, 2010
           Audited Financial Statements for
           Fiscal Years 2010 and 2009, Saint Lawrence
           Seaway Development Corporation
           Report Number: QC-2011-008

  From:    Earl C. Hedges                                          Reply to
           Acting Assistant Inspector General for Financial        Attn of:   JA-20
           and Information Technology Audits

    To:    Saint Lawrence Seaway Development
           Corporation Administrator


           The audit of the Saint Lawrence Seaway Development Corporation’s Financial
           Statements as of and for the fiscal years ended September 30, 2010, and
           September 30, 2009, was completed by Chiampou Travis Besaw & Kershner LLP,
           of Amherst, New York (see Attachment). We performed a quality control review
           of their audit work to ensure that it complied with applicable standards. These
           standards include the Chief Financial Officers Act; Government Corporation
           Control Act; generally accepted government auditing standards prescribed by the
           Comptroller General of the United States; and Office of Management and Budget
           Bulletin 07-04, “Audit Requirements for Federal Financial Statements,” as
           amended.

           Chiampou Travis Besaw & Kershner LLP, concluded that the financial statements
           present fairly, in all material respects, the financial position of the Saint Lawrence
           Seaway Development Corporation as of September 30, 2010, and
           September 30, 2009, and the results of its operations and cash flows for the years
           then ended, in conformity with accounting principles generally accepted in the
           United States. The report did not include any reportable internal control
           weaknesses or material noncompliance issues with accounting principles, laws, or
           regulations.
                                                                             2


Our quality control review disclosed no instances in which Chiampou Travis
Besaw & Kershner LLP, did not comply with applicable auditing standards.
Therefore, we are not making any recommendations, and a response to this report
is not required.

We appreciate the cooperation and assistance of representatives of the Saint
Lawrence Seaway Development Corporation and Chiampou Travis Besaw &
Kershner LLP. If we can answer any questions or be of any further assistance,
please call me at (410) 962-1729 or George Banks, Project Manager, at
(410) 962-0186.

Attachment
                                      #
